Case No. 20-1023

THE SUPREME COURT
OF THE UNITED
STATES
Jean Coulter, Petitioner
v.
Tony Bagnato, et. al., Respondents

On Petition for Certiorari
to the Supreme Court of Pennsylvania

Petition for Reconsideration
of Denial of Writ of Certiorari
Jean Coulter, Petitioner
620 Butler Crossing #3, PMB 172
Butler, Pennsylvania 16001
412-616-9505
jeanecoulter@yahoo.com

Reconsideration of the denial of Coulter’s
petition for Certiorari is required as
Pennsylvania’s Rule of Civil Procedure Pa.
R.C.P. Rule 233.1 Unconstitutionally restricts
the ability of Pro Se Plaintiffs to recover for
damages. This Rule by Pennsylvania’s highest court,
ostensibly was implemented to assure that because
Pro Se Litigants are not concerned about any possible
“professional repercussions”. Pro Se Litigants will be
more likely to violate the restrictions of either res
judicata or collateral estoppel. However, the courts
in all of the other states (and the District of
Columbia) recognize, there is no need for this
unconstitutional restriction on the Due Process
Rights of Pro Se Plaintiffs (especially as both res
judicata and collateral estoppel are always applicable
to Pro Se Litigants as well).
Case Law from Pennsylvania proves that the
Unconstitutional restrictions of Rule 233.1 adversely
affect cases filed by all “classes” of individuals seeking
recovery for injuries resulting from all forms of
wrongdoing by all categories of defendants, (pages 1523)

Argument for Reconsideration
Coulter’s timely “Motion for Stay of
Proceedings in This Court...” was never filed, as
this court’s Clerk erroneously determined that Coulter
had failed to comply with requirements that Coulter
first seek to have the state’s highest court Order This
Honorable Court to stay proceedings in the
Instant Matter in this court. Coulter requested
that This Court delay consideration of this matter
until the Pennsylvania Supreme Court could rule on
the identical argument (which Coulter argued in a
1.

L

matter currently before the state’s highest court).
Specifically, Coulter’s Motion for Stay explains that:
1.) Pennsylvania, alone, among all of the
states, has implemented a method (a Rule of Court)
which is exclusively intended to more readily
dismiss cases which are filed by Pro Se Litigants, as
stated in the decision for GUARRASI v.
Gambardella, Pa: Commonwealth Court 2014
the requirements of Rule 233.1 are not as
stringent as the traditional collateral estoppel
requirements. Gray v. Buonopane, 53 A.3d 829, 836
(Pa. Super. 2012), appeal denied, 64 A.3d 632 (Pa.
2013)...” (emphasis added)
2.) While the state’s highest court has
previously denied review of ... the “Unconstitutional
properties of the state’s Rule of Civil Procedure, Rule
233.1” Coulter had not previously argued the Rule’s
violation of the Rule Making Authority of the state’s
highest court”. Therefore, Coulter suggested that the
state’s highest court should be permitted to complete
consideration of this specific argument in order to
conserve this court’s valuable resources, (emphasis
added) (pages 13-15)
Clearly the State Courts Needs to be Supervised.
Pennsylvania has a well-documented history of
Judicial abuses beyond the unconstitutional
restrictions which are potentially placed on all Pro Se
Plaintiffs. These abuses include notorious scandals :
a.
Corruption in the state’s highest court
“Porn Gate” ended the careers of two (2) of the
seven (7) Justices of Pennsylvania’s Supreme Court.
The scandal began when state Justices and members
of the Attorney General’s Office emailed, often about
matters completely unrelated to their employment 2.

. -s

and frequently those emails were pornographic or
otherwise evidenced deeply held derogatory opinions
of various groups.
During roughly that same time period, another
of the Justices was arrested for using her office staff to
run her political campaign. While that (female) Jurist
was sentenced to House Arrest (and required to write
a personal apology to every other jurist in the state
(on the back of a photograph of the Justice in hand­
cuffs)) - the Jurist’s sister (a state legislator) received
a sentence to 2 V2 years in the state’s correctional
institution - for the identical crime!
“Judicial” scandals extend beyond the
b.
state’s highest court.
In Luzerne County the “Kids for
1.
Cash” scandal proved that personal gain was a
frighteningly common reason for decisions by the
State Courts. In that scandal, more than 2500 “kids”
were wrongly imprisoned in two private correctional
facilities, which paid “kick-backs” to the sentencing
judge, for each day that each child was incarcerated!
And then there is the situation
u.
which resulted in an entire Philadelphia Court
Division being (eventually) eliminated bv- the state
legislature after essentially every judge was found to
be so corrupt that the entire division had to be
scrapped and jurisdiction for traffic offenses
transferred to the Philadelphia Municipal Court. This
comes from a decision by the Pennsylvania Courts :
Philadelphia Municipal Court Traffic Division
Compliance Program
May 2015
For decades the former Traffic Court was
plagued with recurring scandals that
undermined public confidence in the court. In
3.

2011, following a raid by the Federal Bureau of
Investigation, the Pennsylvania Supreme Court
took the unprecedented step of appointing a
commissioned Court of Common Pleas judge as
Administrative Judge of the Traffic Court with
the mission of reforming the Traffic Court
permanently and restoring public confidence in
the adjudication of traffic citations in
Philadelphia. Major reforms implemented since
2011 include:
... As a result of these and other reforms, and
the recent federal prosecutions of former Traffic
Court judges and staff, there is, at present, a
high level of confidence that the Traffic Division
is operating with integrity and professionalism.
However, history has shown that past
efforts to reform the Traffic Court
attenuated over time, and corruption fueled by the insatiable desire of many
Philadelphians to fix traffic tickets always returned. ...” (emphasis added)
It must be noted both that (a.) even the state courts
have acknowledged that there is significant history of
corruption in the state courts and that (b.) the official
judicial response by the Pennsylvania Courts (in May
2015) occurred years after the New York Times
reported that federal prosecutors were pressing
charges against the nine Traffic Court Judges :
“... unveiled fraud charges against nine”
current and former “Philadelphia Traffic Court
judges accused of dismissing or reducing traffic
citations for political, business and social
associates in return for favors ...”
(of “car repairs and shipments of seafood”)
4.

Existing Disciplinary Procedures in
Pennsylvania and Elsewhere - Assure That Only
the Most Extreme Judicial Abuse Will Ever Be
Addressed.
In Pennsylvania, it is generally acknowledged
that the scandals are the result of the atmosphere of
acceptance of the corruption in all of the state’s
courts, which continues despite the publicity
which resulted from those earlier scandals. In fact,
The Legal Intelligencer published an article
entitled “Why Do Pennsylvania's Courts Suffer
From Chronic Scandal?” which explains that the
problems continue for a number of reasons, including
the fact that the “judicial disciplinary system that
remains ineffective despite reform efforts” :
“ Court leaders often claim that these
examples of corruption and misconduct are
isolated incidents carried out by a few bad
apples. But legal and political experts
argue a number of overarching factors
contribute to Pennsylvania’s judicial woes,
from the election of judges to political cronyism,
allowed to fester by a judicial disciplinary
system that remains ineffective despite
reform efforts. ...” (emphasis added) (page
45)
Coulter has repeatedly attempted to have issues
confronted by the state’s Judicial Conduct Board.
However, Coulter has learned that the composition of
the Board consistently assures that no jurist will
be “disciplined” - unless the misconduct is
sworn to by members of the legal profession (a
rare situation indeed)! Pennsylvania’s Judicial
Conduct Board has twelve (12) members - six (6)
appointed by the state’s highest court and six (6) by
5.

i

the state’s governor. Any decision to discipline any
judge, requires that a majority (7 or more) of the
members vote. Further, each set of appointments
must include three (3) members of the legal profession
(judges or lawyers) and three (3) who are neither
judges nor lawyers. So, theoretically, there might be
an equal number of “civilians” as there are
lawyers/judges - and therefore, realistically,
essentially there can never can there be any
“convictions” as to convince a judge or lawyer to
“convict” a judge of wrong-doing is nearly impossible!
However, the Board’s composition is typically even
further skewed by the fact that essentially always, at
least one of the “civilians” on the Board, is a member
of Law Enforcement.
Indeed, the overt corruption is so wide-spread
that, as described in the texts of Coulter’s recent
“Confidential Requests for Investigation” (pages 5356), every single jurist in state’s lower appellate court
chose to either personally violate Federal Criminal
Statutes (including Color of Law Violation of Rights)
or chose to conceal that crime by a fellow jurist thus
violating the Federal Felony Color of Law Conspiracy
Against Rights (18 U.S.C. Sections 242 and 241).
This occurred when Coulter was required (by an
anonymous Order, which was docketed after the Panel
had relinquished jurisdiction back to the trial court),
to post a bond, and request permission to file an
appeal - despite Coulter’s absolute “Right of Appeal”
under Pennsylvania’s Constitution, Article V, The
Judiciary § 9. Right of appeal: “There shall be a right
of appeal in all cases...” In 2020, a Motions Panel (in
the Superior Court) denied Coulter permission to file
appeal - and that decision was later affirmed by the
En Banc decision. Clearly the jurists who “denied”
6.

Coulter’s Right of Appeal were violating Coulter’s
Right to Due Process and their decision was issued
under the “Color of Law” - so their actions constitute
the violation of both state and federal laws.
In order to address the crimes by all of those
jurists, Coulter filed complaints with the state’s
Judicial Disciplinary Board, and, not surprisingly, the
state’s disciplinary board functioned as it was
“designed” to do - refusing to discipline any of the
judges - despite the fact that in doing so, at least six
(6) members of the Board also became criminal coconspirators as those six (6) judges/lawyers are also
required, by their code of conduct (and therefore by
the law) to report the crimes they learned of through
the consideration of Coulter’s Complaint for
Investigation which they had just voted on.
The intentionally “ineffective” design of
the state’s “judicial disciplinary system” is far
from exclusive to Pennsylvania, (pages 23-44)
Indeed, as the New Hampshire Judicial Conduct
Committee explains, the membership of the Board is
frequently and even blatantly biased in favor of
“acceptance” of wrongdoing by jurists - as the Board
Members are specifically selected for their expected
bias in favor of the State’s Judiciary
(From : .https://www.courts.state.nli.us/ committees/
judconductcomm/overview.htm):
“In [ONLY] seven states a majority of the
members are neither judges nor lawyers. New
Hampshire is one such state where six of the
eleven committee members are lay persons.”
And New Hampshire’s site explains that making it
theoretically possible for judicial conduct to be
actually addressed is all that the Boards typically
permit. Indeed, New Hampshire (and other states)
7.

typically assure that the majority of the members will
vote to disregard the “improprieties” (regardless of
how serious they are), simply because the Members
are carefully chosen to assure their depth of bias.
Indeed, in New Hampshire, two of the potentially
unbiased Members are appointed by either the state’s
highest court or by the New Hampshire Bar
Association:
One public member and one alternate public
member who is not a judge, attorney, clerk of
court, or elected or appointed public official, is
appointed bv the president of the New
Hampshire Bar Association.
- One public member and one alternate public
member who is not a judge, attorney, clerk of
court, or elected or appointed public official, is
appointed bv the Supreme Court. ...” (emphasis
added)
So, the theoretically unbiased members of the
committee must still be expected to be biased, as that
is why they were chosen by the judges (and lawyers)
to serve on the committee.
This Court Must Protect ALL Pro Se Litigants as
Pa.R.C.P. Rule 233.1 is Used in Nearly 100 Cases
on Google Scholar Alone
Although Coulter alone is requesting Certiorari
in this court, a search on Google Scholar has
uncovered appeals of decisions related to Rule 233.1
dismissals, in both the state’s appellate courts (as well
as in three (3) cases in the U.S. District Courts, (pages
23 — 43) These however are only the tip of the iceberg,
as Coulter is personally aware of at least three (3)
more which she uncovered in a brief searching of
“233.1” on Google. These pro se cases have been filed
8.

by numerous individuals (of varied backgrounds) and they involve a wide range of issues. And, what is
even more disturbing is that, despite the fact that
Rule 233.1 only permits imposition of 233.1 by the
Trial Court, and only following a request to do so by
Defendants, one at least two separate occasions1
jurists from the Superior Court have overstepped their
authority and sua sponte imposed the restrictions of
Rule 233.1 - completely lacking the authority to do so.
This Honorable Court must act to defend the
rights of pro se litigants to seek recovery in a
highly biased state court system.
The cases discovered in the search of “233.1”
show that numerous Plaintiffs have been “caught” by
this Unconstitutional Rule and the Claims in those
cases are equally varied, but can be grouped into these
areas :
Claims against banks/mortgage lenders
Gray v. Buonopane, Gray v. PennyMac
Corp., Abdullah v. Davids, Gray v. Yavil,
Straker v. Wells Fargo Bank, Bucano v.
Law Offices of Gregory Javardian,
Kawah v. PHH Mortgage Corporation,
Taggart v. Mortgage Electronic
Registration Systems, Inc., The Bank of
New York Mellon v. Mazza, Gray v.
Bridgeford, Pennymac Corp. v. Garrett1
Both Pennymac Corp. v. Garrett. Pa: Superior Court
1
2019 (“Additionally, we bar appellant from continuing to raise
either the same or related claims without leave of court”) and
Lichtman v. Moss. Pa: Superior Court 2019 (“Additionally, we
bar appellant from continuing to raise either the same or related
claims without leave of court. Pa.R.Civ.P. 233.1(c).”) highlight
how the State Courts unconstitutionally and even (continued)

9.

L

Claims against, members of the Justice System
(including Law Enforcement)
Gray v. Buonopane, Bolick v. Com., Gray
v. Yavil, Vasquez v. City of Reading,
Conaway v. Fayette County District
Attorney, Guarrasi v. Hanover Insurance
Company, Brock v. AXA Equitable Life
Insurance Company, George v. Meltzer,
Kerns v. Tharp, Gochin v. Feldman,
Guarrasi v. Gambardellam Dixon v.
Valsamidis, Citizens Bank v. Guerra,
McArdle v. Hufnagel, Barren v.
Pennsylvania State Police, Boatin v.
Miller, Bolick v. Sacavage
Claims involving discrimination (race,
disability, etc)
Abdullah v. Davids, Lichtman v. Walton,
LeBoon v. McLivain
illegally, abuse their authority to pummel any pro se litigant who
displeases them for any reason. Indeed, the Rule of Court
permits only the Trial Court to restrict access to the courts - and
even then, the Trial Court may only do so, if and only if, the
defendant(s) have requested this action.
In Schneller v. Prothonotarv of Montgomery
Countv the Trial Court ordered that the Prothonotary may not
accept any more filings by Plaintiff, including Notice of Appeal —
clearly beyond the scope of the (equally clearly) unconstitutional
Rule.
It is believed that such blatant abuses by the state courts
would never occur if those jurists believed that in any meaningful
manner they would be brought to task for their decisions which
far exceed the authority which they actually possess due to their
official position as a judge in the state courts.

10.

Claims against Government entities
Vasquez v. City of Reading, Lerner v.
Philadelphia Tax Review Board,
Wholaver v. Commonwealth, Cicchiello v.
Service Employee International Union
Healthcare Pennsylvania, Borough of
East McKeesport v. Grove, Crock v.
Carnegie Library of Pittsburgh,
Duquesne City v. Comensky, Cicchiello v.
SEIU 1199P Union Service, Lee v.
Petiolichio, Schneller v. Prothonotary of
Montgomery County
Other (malpractice, consumer, insurance.
landlord/Tenant, etc.)
McNeill v. TEL-LINK, Kerns v. JLR.
Benckini v. Lichtenwalner, Mickman v.
Mickman, Brock v. AXA Equitable Life
Insurance Company, Dutton v. Hospital
of University of Pennsylvania, Subacute
v. Schneller, Moyer v. PPL Electric
Utilities Corporation, LeBoon v.
McLivain, Dutton v. McCrea, Feingold v.
GPX FT Apartment Properties, Schneller
v. Halfpenny Management Co., N'Jai v.
University of Pittsburgh Medical Center,
Crock v. Craig, Ackerman v. Mercy
Behavioral Health, Fonner v. Travelers
Home & Marine Insurance Company
Conclusion
Despite the fact that this matter only directly
concerns the corruption and blatant violation of
Coulter’s Constitutional Rights, it should be seen as
a “Call to Action” for This Honorable Court. We
11.

L

have all seen the way that certain members of Law
Enforcement have gone far beyond the limits of their
authority - acting as judge, jury and (and even
occasionally, as) executioner on the streets of our
cities. The actions by the state’s judiciary on the other
hand remains frequently unseen as the courtrooms
typically forbid the use of cameras or other recording
equipment. But proportionally, the abuses by those
members of the Justice System are no less frequent and no less destructive!
Coulter’s Right of Appeal has been violated by
the state courts and thus, Coulter has no choice but to
appeal to This Honorable Court to defend Coulter’s
Rights. But This Court needs to act, now, to make it
understood that This Honorable Court will defend the
Rights of every person in the country who might get
into a dispute about damages caused by thenneighbor’s trees, or defective work by a contractor, or
even medical errors!
While This Honorable Court is clearly not
directly personally responsible for any of the wrong­
doings involved in the Instant Matter , or has any
direct responsibility for the imposition of Rule 233.1
by the state’s highest court - all of these disgraces
are occurring on your watch - and only This
Honorable Court can take the steps necessary to
assure that the next generation is not subjected
to the results of the extreme corruption which is
occurring in courts all over this country!
Coulter respectfully requests that This
Honorable Court reconsider and grant Certiorari, so
that the Pennsylvania Courts will begin to respect the
limitations of their authority as well as the purpose
and strength of our Constitutions (both state and
federal)
12.

Additional material
from this filing is
available in the
Clerk's Office.

